DECATUR MAN SENTENCED TO 19 ½ YEARS IN PRISON FOR REAL ESTATE FLIPPING SCHEME
FOR IMMEDIATE RELEASEWEDNESDAY, MARCH 5, 2008
WWW.USDOJ.GOV/USAO/ILE/
CONTACT: SHARON PAULPHONE: (217) 492-4450
DECATUR MAN SENTENCED TO 19 ½ YEARS IN PRISON FOR REAL ESTATE FLIPPING SCHEME
Urbana, Ill. - A Decatur, Illinois man, Gary Knox, 61, who
falsely represented himself as a licensed real estate broker in a broad flipping scheme
was sentenced today to a term of 235months (19 years, 7 months) in federal
prison, as announced by Rodger A. Heaton, U.S. Attorney for the Central District
of Illinois. Chief U.S. District Judge Michael P. McCuskey,who presided at
todays hearing, scheduled an additional hearing on May 8, 2008, to determine
restitution to be paid to victims of the scheme.
Knox and two co-defendants, Frank Kelly Ciota, 47, of Riverton;
and Dennis Wiese, Jr.,39, of Belleville, Illinois, each pled guilty to their
respective roles in the scheme. Ciota is scheduled to be sentenced on March
12; Wiese is scheduled for sentencing on May 2, 2008.
The scheme, which began in 1999 or before, and continued
into 2005, involved more than 150 fraudulent real estate sales and financing
transactions of more than $8 million in Springfield and Decatur, Illinois.
Knox represented himself and his business, Central Illinois Management and
Development Company, as being in the business of buying, selling and managing
real estate;
however, he was not a licensed real estate broker or salesperson. Knox and
Ciota obtained more than $3 million for their personal use and to promote the
ongoing
scheme while Wiese received fees of $350 to $450 per appraisal.
The three men admitted engaging in a practice known as flipping, which
involved making false representations, including fraudulent real estate appraisals
by Wiese and used by Knox and Ciota to entice owners to sell, buyers to purchase,
and lenders to finance rental properties that were sold at prices they had
fraudulently inflated to substantially higher than their reasonable value.
Knox and Ciota
admitted that over the course of the scheme they converted more than $3 million
in profits for their personal use and to promote the ongoing scheme.
The case was investigated by the Federal Deposit Insurance
Corporations (FDIC) Office of Inspector General, Western Region; the U.S.
Postal Inspection Service, Chicago Division; and the Federal Bureau of Investigation,
Springfield Division. The Illinois Department of Financial and Professional
Regulation, Division of Banks and Real Estate, also provided assistance in
the investigation. Assistant U.S. Attorney Timothy A. Bass is prosecuting the
case.
Knox pled guilty to three counts of bank fraud; one count
of wire fraud; six counts of mail fraud; and one count of conspiracy to commit
money laundering.
# # #
Last Updated 3/08/08
contact the OIG